The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Deanna Tanner Okun, Chairman
                                        Irving A. Williamson, Vice Chairman
                                        Charlotte R. Lane
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
       UNITED STATES INTERNATIONAL TRADE COMMISSION

                                    WASHINGTON, DC 20436


October 15, 2011                                                      OIG-JJ-021


Chairman Okun:

This memorandum transmits the Inspector General’s summary of the top management and
performance challenges facing the Commission and briefly assesses management’s progress
in addressing these challenges.

I have identified three management and performance challenges for fiscal year 2012;
Internal Controls, Financial Management, and Information Technology-Location
Independence. These challenges were identified based on work by the Office of Inspector
General, input from Commission management, and knowledge of the Commission’s
programs and operations.

Internal Controls: The Commission’s management is responsible for establishing and
maintaining a system of internal controls that can ensure effective and efficient operations,
reliable financial reporting, and compliance with laws and regulations. Recent reviews have
identified areas associated with weak or non-existent internal controls. The most significant
weaknesses identified were noncompliance with the Federal Manager’s Financial Integrity
Act and OMB Circular A-123, Management’s Responsibility for Internal Control.

Although initially identified in the financial management area, internal control weaknesses
appear to be a systemic problem throughout the Commission. The Commission has a long
standing culture of undocumented and informal processes to complete daily tasks.
Documented and consistent processes and procedures are necessary to provide a reasonable
level of assurance demonstrating that offices are operating in an efficient and cost-effective
manner.

The most significant challenge will be to manage the cultural changes associated with
implementing new systems of internal control throughout the Commission. In many
instances, this will require first line supervisors to check, inspect, or review the work of
subordinates to make sure the new procedures are being followed, respect uniform
procedures instead of creating side processes based on personality, and avoid the creation of
“cuff systems” as a work around to dysfunctional, antiquated processes.

Financial Management: The Commission is responsible for ensuring that managers have
access to timely, reliable, and practical information to make informed decisions. The
Commission does not have the systems or personnel core competencies required to integrate
and coordinate budget formulation, execution, and financial reporting into a comprehensive
financial management program. As a result, the Commission cannot provide accountability
for agency funds or essential data to managers for decision making purposes.

The Commission’s budget formulation and execution process is not transparent because
timely and accurate information is not available to decision makers. As a result, decisions
impacting resource allocations for Commission operations are made without sufficient input
from key stakeholders who have relevant and accurate information. Lack of communication
with stakeholders, few documented procedures, and no defined methodologies for
determining budget priorities reveals that not all Commission priorities are considered when
budget decisions are being made.

The Commission does not have the appropriate technical systems expertise to provide
managers with adequate, timely financial information to administer budget execution
activities. The lack of timely and practical financial reports deprive managers of
information needed to effectively monitor the expenditure of funds, evaluate program
performance, and make informed financial decisions regarding their programs and
operations.

The Commission does not have personnel with the necessary technical and analytical skills
required to provide the appropriate management of agency resources in accordance with
laws and regulations. Budget formulation, budget execution, accounting, and financial
reporting should be fully integrated and have transparent processes that promote
accountability and deter potential fraud, waste, and abuse of agency budgetary resources.
The management challenge will be to transform the current approach to financial
management from an accounting exercise to a process that provides transparency and
accountability in the formulation, execution, performance, and management of agency
budgetary resources.

As a result of its disclaimer on the 2009 financial statements, the Commission recognized
the importance and necessity of instituting a system of stronger internal controls and is
implementing corrective actions to address financial management deficiencies.
Improvements resulted in a qualified opinion on the 2010 financial statements and the
decision of the Commission to recruit for a Chief Financial Officer. These small steps
produced improvements; however, the Commission must follow through with permanent
financial management reforms or the short term gains will be lost.

Information Technology-Location Independence: Presently, Commission staff must work
from their desks if they want to access the full suite of Commission data and mission-
specific applications. In addition, the Commission depends upon perfect, uninterrupted

                                           2 of 3
performance and connectivity from its sole data center in order to function, even at a basic
level.

The Commission’s present network configuration does not allow staff to efficiently work
without regard to physical location, or to continue working in the event of an outage
impacting the data center; however, these restrictions could be avoided through the
implementation of additional systems including: office-wide wireless connectivity, increased
bandwidth, high performance remote access, and a secondary data center.

Any number of events could cause the loss of the Commission’s data center, including
power outages, HVAC problems, or an inadvertent virtual or physical cut to the
Commission’s Internet access. Should any of these risks occur, the result will be a total loss
of email, EDIS, and other critical Commission functions until an alternate data center can be
established.

If the Commission can successfully implement wireless, increase bandwidth, and establish
an alternate data center, it will enable its staff to function regardless of the state of the
Commission’s primary data center or physical location. In responding to the challenge of
supporting contingency planning and enabling a mobile workforce, the CIO has taken steps
to virtualize many of the Commission servers and signed a contract to expand the bandwidth
capability of the network.

In closing, I would like to recognize the commitment the Commission has made to
implementing corrective actions in order to resolve recommendations over the past year.
The cultural challenges that I identified can only be overcome by your continued support
and dedication to improving the integrity of the Commission programs and operations. I
will continue to work with you, the other Commissioners, and management to reassess our
goals and objectives to ensure that my focus remains on the risks and priorities of the
Commission.



Philip M. Heneghan
Inspector General




                                            3 of 3
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870’s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
